August 14, 1998


Ms. Linda Dorn

Director, Family Independence Agency

Disability Determination Service

1st Floor Ottawa Building

611 West Ottawa

Lansing, Michigan 48933


Dear Ms. Dorn:

The enclosed final report presents the results of our review, “Audit of Administrative
Costs at the Michigan Disability Determination Service”(A-05-96-51095). The
objectives of our review were to evaluate the Michigan Disability Determination
Service‘s internal controls over the accounting and reporting of administrative costs
and to determine the allowability and allocability of costs claimed.

We would appreciate your views and the status of any further action taken or
contemplated on our recommendation within the next 60 days. If you wish to discuss
the final report, please call me or have your staff contact Daniel R. Devlin, Deputy
Assistant Inspector General for Audit, at (410) 965-9702.

                                             Sincerely,




                                             Pamela J. Gardiner
                                             Assistant Inspector General
                                                 for Audit

Enclosure
            O FFICE O F

    TH E INSPECTO R GENER A L



SO CIALSECUR ITY ADM INISTR A TIO N




    AUDIT O F A D M INISTRA TIVE

     CO STS A T TH E M ICH IGAN

    D ISABILITY D ETERM INA TIO N

              SERVICE


   August 19 9 8    A-05-9 6-5109 5




AUDIT R E PO R T

               E X E CUTIVE S U M M A R Y 


O BJECTIVES

Th e obje ctive s of th is re vie w w e re to e val
                                                  uate th e M ich igan D is ability
D e te rm ination Se rvice ’s (M D D S)inte rnalcontrol s ove r th e accounting and
re porting of adm inis trative cos ts and to de te rm ine th e al  l
                                                                   ow abil ity and al
                                                                                    l     ity
                                                                                     ocabil
of cos ts cl aim e d.

BACKGROUND

Th e D is abil
             ity Ins urance (D I)program w as e s tabl     is h e d in 19 54 unde r title l lof th e
SocialSe curity A ct (th e A ct). Th e program is d e s igne d to provide be ne fits to
w age e arne rs and th e ir fam il
                                 ie s in th e e ve nt th e fam il  y w age e arne r be com e s
dis abl
      e d. Suppl  e m e ntalSe curity Incom e (SSI)w as cre ate d as a re s ul       t of th e Social
Se curity A m e ndm e nts of 19 72 w ith an e ffe ctive date of January 1,19 74 (Pub l           ic
Law (P.L.)9 2-603). SSI(titl     e XVIof th e A ct)provide s a national          ly uniform
program of incom e and dis abil     ity cove rage to financial      ly ne e dy individual s w h o are
age d, bl ind or dis abl e d.

Th e SocialSe curity Adm inis tration (SSA )is prim aril         y re s pons ibl e for im ple m e nting
th e ge ne ralpol icie s gove rning th e de ve l    opm e nt of th e dis abil ity claim s unde r th e D I
and SSIprogram s . D e te rm inations of dis abil        ity unde r both D Iand SSIare
pe rform e d by D is abil ity D e te rm ination Se rvice s (D D S)in e ach State in accordance
w ith Fe de ralre gul  ations . In carrying out its obl      igations , e ach D D S is re s pons ibl e
for de te rm ining th e cl aim ants ’dis abil  itie s and e ns uring th at ade q uate e vide nce is
avail abl e to s upport its d e te rm inations . To as s is t in m ak ing prope r dis abil   ity
de te rm inations , th e D D S is auth orize d to purch as e m e dicale xam inations , x-ray s ,
and l  aboratory te s ts on a cons ul     tative bas is to s uppl  e m e nt e vide nce obtaine d from
cl aim ants ’ph y s icians or oth e r tre ating s ource s .

SSA re im burs e s th e D D S for 100 pe rce nt of al   l
                                                        ow abl  e e xpe nditure s . Each ye ar,
th e D D S s ubm its a budge t re q ue s t to SSA for re vie w and approval     . O nce
approve d, th e pare nt age ncy re s pons ibl   e for dis abil
                                                             ity de te rm ination s e rvice s is
al l
   ow e d to w ith draw Fe de ralfunds th rough th e D e partm e nt of th e Tre as ury
(Tre as ury) to m e e t im m e diate program e xpe ns e s . At th e e nd of e ach q uarte r of
th e fis calye ar (FY), th e pare nt age ncy s ubm its to SSA a “State A ge ncy Re port of
O bl igations for SSA D is abil   ity Program s ”(Form SSA -4513) to account for program
disburs e m e nts and unl   iq uidate d obligations .

For FY 19 9 4, M D D S claim e d $52,212,239 in adm inis trative cos ts to proce s s
                ity cl
159 ,108 dis abil     aim s unde r SSA ’  s D Iand SSIprogram s . For FY 19 9 5,
$53,257,613 w as cl   aim e d to proce s s 143,033 dis abil
                                                          ity cl
                                                               aim s .
O ur audit w as conducte d in accordance w ith ge ne ral  ly acce pte d gove rnm e nt
auditing s tandards . W e conducte d our audit from Jul                         y 19 9 7 at
                                                            y 19 9 6 th rough Jul
th e M D D S in Lans ing, M ich igan, and in our Ch icago, Ill
                                                             inois , office .

RESULTS O F REVIEW

For FY s 19 9 4 and 19 9 5, w e re vie w e d adm inis trative cos ts for pe rs onne l     ,
fringe be ne fits , trave l, e q uipm e nt, and re nt. Th e s e cos ts w e re alow abl
                                                                                l       e and
prope rly allocate d. W e al  s o e xam ine d cos ts cl
                                                      aim e d for m e dicalpaym e nts ,
indire ct cos ts and Fe de ralfinancialre porting. W h il  e m e dicalpaym e nts and Fe de ral
financialre porting w e re ade q uate , w e cannot re com m e nd th at SSA acce pt M D D S’
calcul ation of indire ct cos ts .

Indire ct cos ts claim e d by M D D S w e re cal   culate d us ing fixe d 1 ins te ad of final
indire ct cos t rate s . Indire ct cos ts w e re cal culate d w ith out an adjus tm e nt be ing
m ade to actualcos ts , once actualrate s be cam e k now n. A s a re s ul           t, M D D S
claim e d $352,233 m ore th an al     low abl  e in indire ct cos ts during FY 19 9 3 and th e
firs t 3 m onth s of FY 19 9 4 be caus e it did not re cal   cul ate its cl aim s once final
indire ct cos t rate s w e re k now n.

RECO M M END A TIO N

W e re com m e nd th at SSA disal ow th e indire ct cos ts cl
                                  l                         aim e d ($352,233) th at w e re
in e xce s s of al
                 low abl
                       e cos ts .

SSA /M D D S CO M M ENTS

Both SSA and M D D S agre e d w ith our re com m e ndation.




1
 Se ction IIof th e Indire ct Cos t Rate A gre e m e nt ne gotiate d be tw e e n th e U.S. D e partm e nt of
Education and th e M ich igan D e partm e nt of Education unde r th e caption “       fixe d rate ”s tate s ,

     “th e ne gotiate d fixe d rate is bas e d on an e s tim ate of th e cos ts w h ich w il  lbe incurre d
     during th e pe riod to w h ich th e rate appl   ie s . W h e n th e actualcos ts for s uch pe riod
     h ave be e n de te rm ine d, an adjus tm e nt w illbe m ade in a s ubs e q ue nt ne gotiation to
                                                                                 is h th e fixe d rate and
     com pe ns ate for th e diffe re nce be tw e e n th e cos t us e d to e s tabl
     th e actualcos ts .”


                                                           ii
iii

                 TA BLE O F CO NTENTS


                                                                                                Page


EXECUTIVE SUM M A RY ..........................................................................i


INTRO D UCTIO N ...................................................................................1


RESULTS O F REVIEW ...........................................................................4


    • IND IRECT CO STS CLA IM ED BY M D D S............................................4

RECO M M END A TIO N ............................................................................6


O TH ER M A TTERS ...................................................................... 6


A PPEND ICES

A ppe ndix A - SSA Com m e nts

A ppe ndix B- M D D S Com m e nts

A ppe ndix C- M ajor Re port Contributors

A ppe ndix D - SSA O rganizationalCh art

                           INTRO D UCTIO N


O BJECTIVES

Th e obje ctive s of th is re vie w w e re to e val
                                                  uate M D D S’inte rnalcontrol
                                                                              s ove r th e
accounting and re porting of adm inis trative cos ts and to de te rm ine th e al ow abil
                                                                                 l        ity
and allocabil ity of cos ts cl  aim e d.

BACKGROUND

Th e D Iprogram w as e s tabl   is h e d in 19 54 unde r titl
                                                            e llof th e A ct. Th e program is
de s igne d to provide be ne fits to w age e arne rs and th e ir fam il ie s in th e e ve nt th e
fam il y w age e arne r be com e s dis abl  e d. SSIw as cre ate d as a re s ul t of th e Social
Se curity Am e ndm e nts of 19 72 w ith an e ffe ctive date of January 1, 19 74
(P.L. 9 2--603). SSI(titl   e XVIof th e A ct)provide s a national      ly uniform program of
incom e and dis abil  ity cove rage to financial   l
                                                   y ne e dy individual  s w h o are age d, bl    ind,
or dis abl e d.

SSA is prim aril   y re s pons ibl e for im ple m e nting th e ge ne ralpol   icie s gove rning th e
de ve l opm e nt of th e dis abil ity claim s unde r th e D Iand SSIprogram s .
D e te rm inations of dis abil  ity unde r both D Iand SSIare pe rform e d by D D Ss in e ach
State in accordance w ith Fe de ralre gul        ations . In carrying out its obl      igations , e ach
D D S is re s pons ible for de te rm ining th e cl   aim ants ’dis abilitie s and e ns uring th at
ade q uate e vide nce is avail    abl e to s upport its d e te rm inations . To as s is t in m ak ing
prope r dis abil ity de te rm inations , th e D D S is auth orize d to purch as e m e dical
e xam inations , x-ray s , and l   aboratory te s ts on a cons ul    tative bas is to s uppl  e m e nt
e vide nce obtaine d from cl      aim ants ’ph y s icians or oth e r tre ating s ource s .

SSA re im burs e s th e D D S for 100 pe rce nt of al  l
                                                       ow abl   e e xpe nditure s . Each ye ar,
th e D D S s ubm its a budge t re q ue s t to SSA for re vie w and approval     . O nce
approve d, th e pare nt age ncy re s pons ibl  e for dis ability de te rm ination s e rvice s is
al l
   ow e d to w ith draw Fe de ralfunds th rough th e Tre as ury to m e e t im m e diate
program e xpe ns e s . At th e e nd of e ach q uarte r of th e FY, th e pare nt age ncy
s ubm its to SSA a “State A ge ncy Re port of O bl     igations for SSA D is abil    ity
Program s ”(Form SSA -4513) to account for program disburs e m e nts and
unl iq uidate d obligations .

For FY 19 9 4, M D D S claim e d $52,212,239 in adm inis trative cos ts to proce s s
                ity cl
159 ,108 dis abil     aim s unde r SSA ’  s D Iand SSIprogram s and for FY 19 9 5,
$53,257,613 w as cl   aim e d to proce s s 143,033 dis abil
                                                          ity cl
                                                               aim s .


                                                    1

O n January 1, 19 9 4, M D D S ch ange d pare nt age ncie s from th e M ich igan

D e partm e nt of Education (M D E) to th e M ich igan D e partm e nt of SocialSe rvice s 

(M D SS). M D SS ch ange d its nam e to th e Fam il
 y Inde pe nde nce A ge ncy (FIA )
                                  y a com pone nt w ith in FIA .
during 19 9 6. M D D S is curre ntl

SCO PE A ND M ETH O D O LO G Y

O ur audit w as conducte d in accordance w ith ge ne ral     ly acce pte d gove rnm e nt
auditing s tandards . Th e obje ctive s of th is re vie w w e re to e val
                                                                        uate M D D S’inte rnal
control  s ove r th e accounting and re porting of adm inis trative cos ts and to
de te rm ine th e allow abil
                           ity and al
                                    locability of cos ts cl aim e d.

To accom pl
          is h our obje ctive s , w e :

• Re vie w e d appl
                  icabl
                      e Fe de rall
                                 aw s , re gul
                                             ations , and ins tructions .

• Re vie w e d re l
                  e vant M D D S pol
                                   icie s and proce dure s .

• Re vie w e d Fe de ralfinancialre ports and s upporting docum e ntation s ubm itte d by
  M D D S for FY s 19 9 4 and 19 9 5 to account for program disburs e m e nts and
  unl iq uidate d obl igations . Bas e d on our re vie w of FY s 19 9 4 and 19 9 5

  disburs e m e nts and unl  iq uidate d obligations , w e e xpande d our re vie w to incl ude

  prior and s ubs e q ue nt FY disburs e m e nts for th os e are as in w h ich findings w e re
  ide ntifie d.

• Eval  uate d s ignificant inte rnalcontrolare as re garding M D D S adm inis tration and
  te s te d s e l
                e cte d trans actions re l
                                         ate d to th os e inte rnalcontrolare as .

• Re vie w e d th e State of M ich igan’    s Singl e A udit re ports for M D E and M D SS for
  th e FY s e nde d Se pte m be r 30, 19 9 3 and Se pte m be r 30, 19 9 4, re s pe ctive l    y. At
  th e tim e of our re vie w , th e s e w e re th e m os t re ce ntl
                                                                   y com ple te d Singl e A udits
  pe rform e d. W e re vie w e d appl   icabl e w ork ing pape rs pre pare d by th e M ich igan
  O ffice of th e A uditor Ge ne ralin its Singl     e A udit of M D E and M D SS for
  FY s 19 9 3 and 19 9 4, re s pe ctive l  y. Bas e d on th at re vie w , w e re lie d on th e w ork
  of th e M ich igan O ffice of Auditor Ge ne ralto re duce th e e xte nt of te s ting in th e
  e igh t s ignificant inte rnalcontrolare as w e ide ntifie d.

• Re vie w e d M D D S s upporting docum e ntation for m e dicals e rvice re cords .

• Ve rifie d re concil
                     iation of M D D S accounting re cords to adm inis trative cos ts
  re porte d by M D D S to SSA for FY s 19 9 4 and 19 9 5.




                                                 2

• Re vie w e d re l
                  e vant M e dicare Part B Clinicaland Laboratory te s t fe e s ch e dul
                                                                                       e s in
  force for M ich igan during Cal   e ndar Ye ars 19 9 4 and 19 9 5.

• Re vie w e d Am e rican M e dicalA s s ociation (A M A )“Ph y s ician’
                                                                       s Curre nt Proce dural
  Te rm inol ogy Book for M e dicare ”l   aboratory te s t proce dure code s .

• Inte rvie w e d AM A official
                              s to de te rm ine th e prope r M e dicare proce dure code s
  for laboratory te s ts .

W e ide ntifie d e igh t s ignificant inte rnalcontrolare as re l     e vant to our audit
obje ctive s . Th e s e w e re pe rs onne l, fringe be ne fits , dupl   icate m e dicalpaym e nts ,
e m pl oye e trave l, e q uipm e nt purch as e s , re nt, l
                                                          e tte r of cre dit, and financial
re porting. W e re vie w e d e ach of th e s ignificant are as ide ntifie d for com pl    iance
w ith appl  icabl e law s and re gul  ations . Exce pt as note d in th e RESULTS O F REVIEW
s e ction of th is re port, w e found no ins tance s of noncom pl          iance .

W e conducte d our audit from Jul   y 19 9 6 th rough Jul
                                                        y 19 9 7 at M D D S in Lans ing,
M ich igan, and in our Ch icago, Il
                                  linois , office .




                                                 3

                 R E S U LTS O F R E VIE W


IND IRECT CO STS CLA IM ED BY M D D S

O ur re vie w of indire ct cos ts cl  aim e d by M D D S dis clos e d th at cos ts w e re
cal  cul
       ate d us ing fixe d ins te ad of finalindire ct cos t rate s . W h e n th e actualcos ts
for FY 19 9 3 and th e firs t 3 m onth s of FY 19 9 4 w e re de te rm ine d, adjus tm e nts
w e re not m ade to com pe ns ate for th e diffe re nce s be tw e e n th e cos t us e d to
e s tablis h th e fixe d rate s and th e finalrate s . As a re s ult, M D D S cl aim e d $352,233
m ore in indire ct cos ts during FY 19 9 3 and th e firs t 3 m onth s of FY 19 9 4 by us ing
fixe d indire ct cos t rate s and not re cal  culating its cl aim s once finalindire ct cos t
rate s w e re k now n.

Se ction IIof th e Indire ct Cos t Rate A gre e m e nt ne gotiate d be tw e e n th e U.S.
D e partm e nt of Education and M D E unde r th e caption “fixe d rate ”s tate s ,

    "th e ne gotiate d fixe d rate is bas e d on an e s tim ate of th e cos ts w h ich
    w illbe incurre d during th e pe riod to w h ich th e rate appl      ie s . W h e n th e
    actualcos ts for s uch pe riod h ave be e n de te rm ine d, an adjus tm e nt w il       l
    be m ade in a s ubs e q ue nt ne gotiation to com pe ns ate for th e diffe re nce
    be tw e e n th e cos t us e d to e s tabl
                                            is h th e fixe d rate and th e actual
    cos ts .”

FY 19 9 3 Indire ct Cos ts

O n January 1, 19 9 4, M D D S ch ange d pare nt age ncie s from M D E to M D SS.
Subs e q ue ntly, M D SS ch ange d its nam e to FIA . M D D S is curre ntl    y a com pone nt
w ith in FIA . FIA doe s not us e an indire ct cos t rate for al  locating pare nt age ncy
cos ts . Rath e r, pare nt age ncy cos ts are dire ctl y allocate d to s ubs idiary age ncie s
bas e d on th e num be r of e m ploye e s (indire ct cos ts are allocate d bas e d on th e
pe rce ntage of M D D S s taff ide ntifie d to th e totalFIA s taff).

In FY 19 9 3, M D D S cl aim e d $2,162,646 in indire ct cos ts us ing a 4.7 pe rce nt fixe d
rate . W e as k e d MDE official s to obtain a finalindire ct cos t rate for FY 19 9 3.
                     e for obtaining indire ct cos t rate s on be h al
M D E is re s pons ibl                                                 f of M D D S from th e
U.S. D e partm e nt of Education. Th e finalindire ct cos t rate w as 3.4 pe rce nt. Us ing
th e 3.4 pe rce nt finalindire ct cos t rate , w e cal
                                                     cul ate d th e FY 19 9 3 indire ct cos ts to
be $1,564,467. Th e re fore , M D D S cl   aim e d $59 8,179 m ore in indire ct cos ts for
FY 19 9 3 by us ing a fixe d rath e r th an finalindire ct cos t rate . M D E official s


                                                  4

inform e d us th at a finalindire ct cos t rate w as not obtaine d for FY 19 9 3 s ince th e y
obtaine d a finalindire ct cos t rate for FY 19 9 4.

FY 19 9 4 Indire ct Cos ts

W h e n M D D S ch ange d pare nt age ncie s on January 1, 19 9 4 from M D E to M D SS,
M D D S cal cul ate d indire ct cos ts of $181,786 for th e pe riod O ctobe r 1, 19 9 3
th rough D e ce m be r 31, 19 9 3 us ing a 1.7 pe rce nt fixe d rate . A l th ough M D E
obtaine d a finalindire ct cos t rate for FY 19 9 4 in Se pte m be r 19 9 5 of 4 pe rce nt,
M D D S faile d to re calcul ate its indire ct cos t cl aim once it ch ange d pare nt age ncie s .
W e be lie ve th at indire ct cos ts for th e firs t 3 m onth s of FY 19 9 4 s h oul d h ave be e n
$427,732 bas e d on th e 4 pe rce nt finalindire ct cos t rate . W h e n th e indire ct
cos ts for FY 19 9 4 w e re de te rm ine d, an adjus tm e nt w as not m ade to
com pe ns ate for th e diffe re nce be tw e e n th e cos t us e d to e s tabl     is h th e fixe d
rate and th e finalrate . Th e re fore , M D D S unde rcl       aim e d $245,9 46 in indire ct
cos ts by using a fixe d rath e r th an finalindire ct cos t rate .

Th e ne t M D D S ove rcl
                        aim of $352,233 re s ul
                                              te d from th e diffe re nce be tw e e n th e
FY 19 9 3 ove rcl aim of $59 8,179 and th e unde rclaim of $245,9 46 for th e firs t
3 m onth s of FY 19 9 4.




                                                 5

                    RECO M M END A TIO N


W e re com m e nd th at SSA disal l
                                  ow th e indire ct cos ts cl
                                                            aim e d ($352,233) th at w e re
in e xce s s of al
                 l     e cos ts .
                  ow abl

SSA /M D D S CO M M ENTS

Both SSA and M D D S agre e d w ith our re com m e ndation. (Se e A ppe ndice s A and B
for th e com pl
              e te te xt of th e SSA and M D D S com m e nts , re s pe ctive l
                                                                             y)

O TH ER M A TTERS

SSA as k e d us to de te rm ine th e dis pos ition of funds al lotte d to M D D S to purch as e
th e Inte llige nt W ork s tations /LocalA re a Ne tw ork (IW S/LA N)and D is abil ity
D e te rm ination Cl aim s Proce s s ing Sys te m (D D CPS). Th is proje ct w as initial
                                                                                       ly
funde d by SSA during FY 19 9 2. SSA inform e d us th at M D D S coul          d not provide
s upporting docum e ntation for th is proje ct and as k e d us to de te rm ine if cos ts for
th is proje ct w e re prope rl y docum e nte d.

W e found th at M D E e nte re d into an agre e m e nt w ith th e O ffice of Inform ation
Te ch nol  ogy, M ich igan D e partm e nt of M anage m e nt and Budge t, to de ve l      op and
im pl e m e nt th is s y s te m for M D D S. Bas e d on invoice s provide d to us by M D D S, as
of Se pte m be r 30, 19 9 6, M D D S incurre d e xpe nditure s of $4,9 21,158 for th is
proje ct. W e e xam ine d th re e purch as e invoice s am ounting to $1,460,9 83, (al          m os t
30 pe rce nt of totalincurre d e xpe nditure s by M D D S). W e s e l     e cte d th e th re e
invoice s be caus e th e y containe d th e l   arge s t dolar am ount of com pute r h ardw are
                                                           l
and s oftw are purch as e s s ince th e ince ption of th e proje ct. Bas e d upon our
re vie w , w e be l ie ve th at th e docum e ntation is avail able to s upport th e $4,9 21,158
claim e d for th e IW S/LA N-D D CPS proje ct as of Se pte m be r 30, 19 9 6.




                                                  6

A PPEND ICES

                A PPEND IX A



SSA COMMENTS





     A -1

                       A PPEND IX B



M D D S CO M M ENTS





        B-1

                                                                                  A PPEND IX C



            M A JO R REPO RT CO NTRIBUTO RS


O ffice of Ins pe ctor Ge ne ral

Roge r Norm and, D ire ctor, North e rn Program Audit D ivis ion

Barry Sh ul
          m an, D e puty D ire ctor, North e rn Program Audit D ivis ion, Ch icago

Rich ard Dubin, Auditor


For additionalcopie s of th is re port, pl  e as e contact th e O ffice of th e Ins pe ctor

Ge ne ral ’
          s Pub l
                ic A ffairs Spe cial
                                   is t at (410)9 66-9 135. Re fe r to Com m on

Ide ntification Num be r A -05-9 6-5109 5.




                                               C-1

                              A PPEND IX D



SSA O RGA NIZ A TIO NA LCH ART





              D -1

